No.
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2018

In re Thomas F. Williams
Petitioner.
PROOF OF SERVICE
4^
I, Thomas F. Williams, do swear or declare that on this date, /$ day of
, 2019, as required by Supreme Court Rule 29 I have served the
enclosed PETITION FOR WIT OF HABEAS CORPUS with APPENDIX on
each party to the above proceeding or that parties counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within three calender days. The names and addresses of those served are
as follows:
Ashley Moody
Attorney General
The Capitol, PL-01
Tallahassee, Florida 32399-1050
[COPY]

Mark S. Inch, Secretary
do: General Counsel
Department of Corrections
501 South Calhoun Street
Tallahassee, Florida 32399-2500
[COPY]

CLERK OF COURT
Thomas F. Williams #095608
Union Correctional Institution
U.S.Supreme Court
One First Street, N.E.
P.O. Box 1000
Washington, DC 20543
Raiford, Florida 32083
[ORIGINAL]
[COPY]
I declare under penalty of perjury that the foregoing is true and correct.
Executed.on this /$ ^ day of
__________, 2019.
/s/
Thomas F. Williams #095608
Petitioner pro se

